                                  Office of Inspector General (OIG), USDA
                                        Investigation Developments


July 2, 2013
Joint Investigation Results in Former Owner and Former Chief Officer of Kentucky Livestock Company Being
Sentenced, Ordered to Pay $4.8 Million in Restitution and Forfeiture for Mail Fraud Upon a Financial Institution

On May 21, 2013, in U.S. District Court in Kentucky, the former owner and the former chief operating officer
(COO) of a livestock company were sentenced to 70 and 57 months’ imprisonment, respectively. Restitution was
ordered, which is to be offset with a pending civil forfeiture of over $4.8 million. The OIG investigation,
conducted jointly with the Federal Bureau of Investigation (FBI) and the U.S. Postal Inspection Service, disclosed
that the livestock company operated a large-scale check kiting scheme to inflate the value of its accounts receivable
in order to maintain and access a $32.5 million bank line of credit used to purchase livestock. When the bank
discovered the scheme and closed the company’s accounts in November 2010, hundreds of businesses and
individuals holding checks that could not be honored suffered financial losses. The owner and COO pled guilty to
mail fraud upon a financial institution. Two other individuals pled guilty to State charges and were each sentenced
to 1 year of imprisonment.

Joint Investigation Results in Former Texas Mayor Being Sentenced and Removed from Office for Theft and Abuse
of Official Capacity

On May 10, 2013, in a Texas State court, a former mayor who misused city funds and assets was sentenced to four
terms of imprisonment (each term being 5 years or 1 year) that will run concurrently. USDA OIG contributed to a
joint investigation1 that determined that the mayor obtained approximately $115,000 in Rural Development (RD)
grants and loans in March 2010 to buy three fully equipped police vehicles. The former mayor used the vehicles as
collateral to obtain a $40,000 loan from a local bank to pay city employees, in violation of the grant agreement
which prohibits grantees from encumbering or disposing of property without RD’s consent. The mayor also
misused other city funds and took a personal loan from a city bank account. In April 2013, a jury found the mayor
guilty of felony charges including misapplication of fiduciary property, theft by a public servant, and abuse of
official capacity. The mayor was removed from office following her conviction. Four other city employees—
including three police officers who had previously pled guilty to lesser charges—were fined and resigned from their
positions. Charges against two officials were dismissed.

Former RD Employee Sentenced, Ordered to Pay $3.9 Million in Restitution for Wire Fraud

On June 5, 2013, in U.S. District Court in Alabama, a former RD employee was ordered to pay $3.9 million in
restitution to seven water authorities and one electric authority. The individual had previously been sentenced in
March 2013 to 5 years’ imprisonment. OIG’s investigation determined that the employee committed bank fraud by
depositing $6.2 million in checks issued by 10 water authorities and an electric authority into a bank account on
which he had the sole signatory authority. The individual then transferred those funds to a personal account and his
E-trade account. He later repaid some of the funds he had diverted. The defendant pled guilty to wire fraud and
was removed from Federal service in January 2013.




1
  The Montgomery County District Attorney’s Office, the FBI, the Texas Rangers, the Texas Department of Public Safety, and
the Drug Enforcement Administration participated in the investigation.
                                                                                                                    2

Joint Investigation Results in Wisconsin Man Being Sentenced and Ordered to Pay $2.5 Million in Restitution for
Bank Fraud

On May 14, 2013, in U.S. District Court in Wisconsin, an individual who committed bank fraud and loan fraud
involving RD loans was sentenced to 45 months’ imprisonment and ordered to pay $2.5 million in restitution. The
defendant will be prohibited from handling financial transactions upon release from prison. The OIG investigation,
conducted jointly with the Internal Revenue Service (IRS) and the FBI, disclosed that the man acquired properties
using false representations to RD, embezzled funds from reserve accounts, and mismanaged loan funds. His
actions led to an estimated net loss to RD of $840,000 and estimated bank fraud of $2.5 million at two private
lending institutions. The defendant pled guilty to two counts of bank fraud. He agreed to a 5-year voluntary
disqualification and debarment from all USDA programs.

California Store Owner Sentenced and Ordered to Pay $1 Million in Restitution for Theft of Government Property

On May 6, 2013, in U.S. District Court, Eastern District of California, the owner of a retail store who trafficked in
Supplemental Nutrition Assistance Program (SNAP) benefits was sentenced to 37 months’ imprisonment and
ordered to pay $1 million in restitution. USDA OIG agents determined that the store was purchasing SNAP
benefits, and a significant portion of the store’s approximately $2 million in SNAP redemptions during a two-year
period were not supported by legitimate sales. More than $230,000 was seized during the investigation and will be
applied towards restitution. The owner pled guilty to theft of Government property in December 2012.

Joint Investigation Results in Former Executive of Community Action Corporation in Maine Being Sentenced and
Ordered to Pay $1.4 Million in Restitution for Conspiracy and Embezzlement

On May 21, 2013, in U.S. District Court in Maine, the former executive director of a community action corporation
was sentenced to 30 months’ imprisonment and ordered to pay restitution of $1.4 million. The investigation
determined that Federal funds, including administrative funds in the Special Supplemental Nutrition Program for
Women, Infants, and Children (WIC), were diverted to a consulting company and then used to pay personal living
expenses and cash kickbacks to its executive director. He pled guilty to conspiracy, embezzlement from a
Federally-funded program, tax evasion, and signing false tax returns. The investigation was conducted by USDA
OIG, IRS, and the OIGs at the Department of Housing and Urban Development and the Department of
Transportation.

Wisconsin Meat Delivery Company Owner Sentenced and Ordered to Pay $716,000 in Restitution for SNAP Fraud

On May 9, 2013, in U.S. District Court in Wisconsin, the owner of a meat delivery company who trafficked in
SNAP benefits was sentenced to 2 years’ imprisonment, and ordered to pay $716,000 in restitution. The OIG
investigation disclosed that the owner exchanged cash for SNAP benefits at homeless shelters. He pled guilty to
one count of SNAP fraud.

Former Bank Branch Manager in Missouri Sentenced and Ordered to Pay $1.2 Million in Restitution for Bank
Fraud and Embezzlement

On May 20, 2013, in U.S. District Court in Missouri, the former branch manager of a bank was sentenced to
57 months’ imprisonment and ordered to pay approximately $1.2 million in restitution. The joint investigation,
conducted by OIG and the Federal Deposit Insurance Corporation, found that he created and issued irrevocable
                                                                                                                      3

letters of credit on bank letterhead to a bank customer who then used the letters as collateral to obtain RD loans.
The bank customer was the end recipient of several RD pass-through business loans involving electrical
cooperatives. The former bank branch manager pled guilty to bank fraud, embezzlement, and aiding and abetting.

Illinois Food Store Owner Sentenced and Ordered to Pay $159,000 in Restitution for Wire Fraud

On May 22, 2013, in U.S. District Court in Illinois, the owner of a Chicago food market that trafficked in SNAP
benefits was sentenced to 3 years of probation and ordered to pay $159,000 in restitution. OIG's investigation
disclosed that from June 2009 to June 2010, the owner was exchanging SNAP benefits for cash and ineligible
items. In addition, the OIG investigation found that he had owned a store at the same location under a different
name that was disqualified from SNAP in 2006. The store was reopened with a different name and his wife was
listed as the owner on the paperwork filed to participate in SNAP. However, the disqualified individual actually
continued to operate the store. He pled guilty to wire fraud in September 2012.

Joint Investigation Results in Michigan Couple Being Sentenced and Ordered to Pay $85,000 in Restitution for
Theft of Public Money and Illegal Entry into the United States

On May 22, 2013, in U.S. District Court in Michigan, a man and woman who fraudulently received Federal benefits
while illegally in the United States were sentenced to 2 years and 1 year of incarceration, respectively. They were
also ordered, jointly and severally, to pay restitution of $85,000, and will be deported to Mexico following
incarceration. The joint investigation determined that they illegally re-entered the United States in 2004 after they
had been previously deported. Since 2004, the defendants received more than $80,000 in benefits—including
SNAP, WIC, Medicaid, and Temporary Assistance for Needy Families—for which they were not eligible. They
each pled guilty to three counts of theft of public money and one count of illegal reentry into the United States.
This investigation was conducted by USDA OIG and the OIGs at the Social Security Administration and the
Department of Homeland Security.
